>

(m

ir

T
V

It

!■>

' 'V'

APPENDIX

\ '

APJWX* A

6/12/2020
Clerk, U.S. District & Bankruptcy
Court for the District of Columbia

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
ERIC E. TAYLOR,
Plaintiff,
v.
DONALD J. TRUMP, et al.,
Defendants.

)
)
)
)
)
)
)
)
)

Civil Action No. 1:20-mc-00001 (UNA)

MEMORANDUM OPINION
This matter is before the court on its initial review of plaintiffs pro se initiating pleading

•?

1 arid application for leave to proceed in forma pauperis. The court will grant the in forma pauperis
>-

application and dismiss the case pursuant to 28 U.S.C. § 1915(e)(2)(B)(i), which allows for
dismissal if a plaintiff fails to state a claim upon which relief can be granted or if an action is
frivolous or malicious. Plaintiff has also filed a motion for summary judgment which will be
denied.
Plaintiff, who lists an address of Portsmouth, Virginia, has filed an initiating pleading
without any title caption identifying its purpose. He lists the President, U.S. Congress, numerous
federal judges and Supreme Court Justices, as well as unknown “attestors [sic] and proponents”
and “every other United States Citizen[,]” in the case caption where defendants should be listed
but instead indicates that this case is “not versus” the aforementioned entities and individuals,
insinuating that they are not intended as defendants.
In attempting to initiate a civil case before this court, a plaintiff must file a complaint or
pleading stating a claim for relief. See Fed. R. Civ. P. 8. The initiating pleading here fails to abide
by any of the relevant Federal or Local Civil Rules of Procedure. Further, plaintiff must put forth

sufficient factual matter, accepted as true, to ‘state a claim to relief that is plausible on its face.”’
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell All. Corp. v. Twombly, 550 U.S. 544,
570 (2007)). A matter that lacks “an arguable basis either in law or in fact” is frivolous, Neitzfce
v. Williams, 490 U.S. 319, 325 (1989), and a “complaint plainly abusive of the judicial process is
properly typed malicious,” Crisafi v. Holland, 655 F.2d 1305, 1309 (D.C. Cir. 1981).
Here, the initiating pleading and its intended purpose are incomprehensible. It consists of
rambling ruminations regarding double jeopardy and executive and legislative oaths and duties.
Plaintiff also seems to allege that he was improperly indicted and prosecuted in Virginia, however,
no other sufficient information is provided. Neither the proposed parties nor the causes of action
are identified. He seeks a “zillion” dollars in damages, injunctive relief, and broadly asks the Court
r
M.

to review various portions of the Constitution and federal code.
This court cannot exercise subject matter jurisdiction over a frivolous action. Hagans v.
Lavine, 415 U.S. 528, 536-37 (1974) (“Over the years, this Court has repeatedly held that the
federal courts are without power to entertain claims otherwise within their jurisdiction if they are
‘so attenuated and unsubstantial as to be absolutely devoid of merit.’ ”) (quoting Newburyport
Water Co. v. Newburyport, 193 U.S. 561, 579 (1904)); Tooleyv. Napolitano, 586 F.3d 1006, 1010
(D.C. Cir. 2009) (examining cases dismissed “for patent insubstantiality,” including where the
plaintiff allegedly “was subjected to a campaign of surveillance and harassment deriving from
uncertain origins.”). A court may dismiss a matter as frivolous “when the facts alleged rise to the
level of the irrational or the wholly incredible,” Denton v. Hernandez, 504 U.S. 25, 33 (1992), or
“postulate] events and circumstances of a wholly fanciful kind,” Crisafi, 655 F.2d at 1307-08.

The instant matter satisfies this standard, hi addition to failing to state a claim for relief or
to establish federal jurisdiction, the initiating pleading is deemed frivolous on its face.
Consequently, this case will be dismissed with prejudice. A separate order accompanies this
memorandum opinion.

/s/
EMMET G. SULLIVAN
United States District Judge
DATE: June 12, 2020

Additional material
from this filing is
available in the
Clerk's Office.

